Report No. D-2011-023              December 13, 2010




      American Recovery and Reinvestment Act
 Project to Construct a Child Development Center at
                Fort Belvoir, Virginia
                                    INSPECTOR GENERAL 

                                  DEPARTM ENT OF DEFENSE 

                                     400 ARMY NAVY DRIVE 

                                ARLINGTON, VIRG INIA 22202- 4704 





                                                                               December 13, 20 I 0

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)!
                 CHIEF FINANCIAL OFFICER
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: American Recovery and Reinvestment Act Project to Construct
         a Child Development Center at Fort Belvoir, Virginia
         (Report No. 0-2011-023)

The 000 Office ofInspector General is performing various audits of DoD's implementation of
Public Law 111-5, "American Recovery and Reinvestment Act of2009," February l7, 2009
(Recovery Act). We selected one Fort Belvoir Recovery Act project to review (see Audit
Methodology section).

We reviewed project 64148, to construct a standard-design child development center with capacity
for 338 children, age 6 weeks through 5 years. This center will provide a safe, healthy, and
affordable environment for dependent children of military members, Federal employees, and 000
contractors relocating to Fort Belvoir as part of Base Realignment and Closure. The U.S. Army
Corps of Engineers, Baltimore District (USACE Baltimore), provided contracting and project
management services to the Fort Belvoir Garrison. USACE received $14.6 million in Recovery
Act funds for this project.

Our objective in reviewing this project was to determine whether:

   • 	 it was adequately justified and planned to ensure the appropriate use of Recovery Act
       funds (PlaIUling);
   • 	 funds were awarded and distributed in a prompt, fair, and reasonable manner (Funding);
       and
   • 	 its contract contained the required Recovery Act Federal Acquisition Regulation (FAR)
       clauses (Initial Project Execution).

We determined that project 64148 was justified and met Recovery Act goals regarding
accountability and transparency. Personnel at Fort Belvoir and USACE Baltimore properly
planned, funded, and contracted for the project in accordance with Recovery Act and Office of
Management and Budget guidance.

PLANNING

We reviewed the DO l39l, "Military Construction Project Data," and supporting cost
documentation for project 64148 and determined that the project was properly planned. The
DO l391 adequately explained the project justification, requirements, current state, and impact of
constructing the child development center. The economic analysis included a discussion of
alternatives, which concluded that construction of a child development center was the best and
most economical solution. Fort Belvoir personnel selected a 338-capacity child development
center based on projected capacity needs, in accordance with the Army Standard for Child
Development Center construction.

The DoD Office ofInspector General is assessing the Army's overall planning of Recovery Act­
funded military construction (MILCON) projects of child development centers (Project No.
D2009-DOOOAE-0268.000, "Recovery Act-Funded Military Construction of Army Child
Development Centers"). In performing this assessment, we considered factors beyond the
DD 1391 justifications, including whether the Army most equitably apportioned Recovery Act
funds to base locations where the need for child care was greatest. We used data projections
tluough FY 2015 to compare the child care needs of Fort Belvoir with the needs of the following
six other Army installations receiving Recovery Act funding to build child development centers:
Fort Bragg, North Carolina; Fort Drum, New York; Fort Eustis, Virginia; Hunter Army Airfield,
Georgia; Fort Carson, Colorado; and Fort Hood, Texas. We found that while the Army had valid
requirements for using Recovery Act funding to build child development centers at Fort Belvoir
and the six other installations, the apportionment of resources among the installations needed
improvement.

FUNDING

The DoD expenditure plan for the Recovery Act designated a list of Army MILCON projects that
included project 64148, valued at $14.6 million. On April 9, 2009, the Office of the Assistant
Secretary of the Army (Financial Management and Comptroller) issued a Funding Authorization
Document for $14.6 million to the USACE Commander. In January 2010, USACE Baltimore
awarded a $10.4 million contract fo r construction of the child development center and set aside an
additional $1.4 million for contingencies, supervision and administration, and other expenses
related to the project. The Army can use the remaining $2.8 million to fund other Recovery Act
work .

Under provisions of the Under Secretary of Defense (Comptroller)/Chief Financial Officer
(USD[C]/CFO) memorandum, "Project Cost Variations During Execution of American Recovery
and Reinvestment Act Expenditure Plans for Infrastructure Investments," May 7, 2009, the Army
can use savings to offset cost growth on other Recovery Act-funded child development centers.
As of January 20, 2010, Headquarters USACE had recognized savings of$II .7 million from
seven Recovery Act-n\l1ded MILCON child development center projects, including the Fort
Belvoir project. The Army nominated a project to construct an additional child development
center using the combined savings. On April 29, 2010, the Army, through the USD(C)/CFO,
notified Congress of its intent to fund the $9 million construction of a child development center at
Fort Polk, Louisiana, using the combined savings.

CONTRACTING

We reviewed the presolicitation and award for Recovery Act Project 64148 at Fort Belvoir and
determined that USACE Baltimore contracting persOlmel competed and awarded the contract with
nIll transparency and that the contract contained the required FAR clauses. Although the original


                                                  2

presolicitation notice for the project task order did not identify the project as a Recovery Act
action, on November 6,2009, USACE Baltimore personnel issued a special notice on the Federal
Business OppOltunities (FBO) Web site. The notice identified the project as a Recovery Act
action and stated that the oppOltunity was available only to the four contractors selected under a
previously competed multiple-award task order contract. The notice clearly explained the nature
of the work and informed the public that the notice was for informational purposes only, thereby
meeting the intent of the Recovery Act. On January 20, 2010, USACE Baltimore awarded a
$10.4 million firm-fixed-price task order to Vetco Contracting Services, LLC, for construction of
the child development center and posted the contract award notice on the FBO Web site. The
contracting officer recorded the award in the Federal Procurement Data System and included the
Treasury Account Symbol in the Description of Requirement.

REVIEW OF FORT BELVOIR AND US ACE BALTIMORE INTERNAL CONTROLS

U.S. Army Corps of Engineers Baltimore District internal controls over the plmming, funding, and
contracting for the construction of a child development center at Fort Belvoir were effective as
they applied to the audit objectives.

AUDIT STANDARDS

We conducted this audit from August 2009 through January 2010 and from April 2010 t1u'ough
November 2010 in accordance with generally accepted government accounting standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

AUDIT METHODOLOGY

We visited FOlt Belvoir and contacted USACE Baltimore personnel to review the selected project.
We interviewed Department of Public works personnel at Fort Belvoir and contracting and project
management personnel from USACE Baltimore. We reviewed requirements, contracting, and
financial documentation dated from March 2009 through February 2010. We used this supporting
documentation to determine whether Fort Belvoir and USACE properly plmmed, funded, and
contracted for the project in accordance with the Recovery Act and Office of Management and
Budget guidance.

Before selecting DoD Recovery Act projects for audit, the Quantitative Methods and Analysis
Division of the DoD Office ofInspector General analyzed all DoD agency-funded projects,
locations, and contracting oversight organizations to assess the risk of waste, fraud, and abuse
associated with each. We selected most audit projects and locations using a modified Delphi
technique, which allowed us to quantifY the risk based on expert auditor judgment, and other
quantitatively developed risk indicators. Initially, we selected 83 projects with the highest risk
rankings; auditors chose some additional projects at the selected locations. We used information
collected from all projects to update and improve the risk assessment model.


                                                 3
We did not use classical statistical sampling techniques that would permit generalizing results to
the total population because there were too many potential variables with unknown parameters at
the beginning of this analysis. The predictive analytic techniques employed provided a basis for
logical coverage not only of Recovery Act dollars being expended but also of types of projects and
types of locations across the Military Services, Defense agencies, State National Guard units, and
public works projects managed by USACE.

USE OF COMPUTER-PROCESSED DATA

We used computer-processed data to perform this audit. We used posted notices on the FBO Web
site (http://www.fbo.gov) in meeting our audit objectives. Specifically, we used the FBO Web site
to determine whether USACE met transparency requirements by reporting Recovery Act-funded
contract actions. We tested the accuracy of the data by comparing the project data reported on the
FBO Web site with documents in the contract file. We concluded that the data were sufficiently
reliable for our audit purposes.

PRIOR AUDIT COVERAGE

The Govenunental Accountability Office, the Department of Defense Inspector General, and the
Military Departments have issued reports and memoranda discussing DoD projects funded by the
Recovery Act. You can access unrestricted reports at http://www. recovery.gov/accountability.

Our review of project 64148 will be included in a summary report to be issued later. We
appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604-9201
CDSN 664-920 I). If you desire, we will provide a formal briefing on the results.




                                       J~'d~'fJ:F
                                             Assistant Inspector General
                                             Acquisition and Contract Management




                                                 4

